\S0?
&

SUPREME COURT OF GEORGIA
Case No. S21D0772
March 09, 2021

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
RELONZO PHILLIPS v. DEKALB COUNTY SHERIFF.
Upon consideration of the Application for Discretionary
Appeal, it is ordered that it be hereby denied.
All the Justices concur.
Trial Court Case No. 21CV14153

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

Clerk

\V>

0s

<>1V

FILED 2/8/2021 4:32 PM CLERK OF SUPERIOR COURT DEKALB COUNTY GEORGIA

IN THE SUPERIOR COURT OF DEKALB COUNTY
STATE OF GEORGIA

)
)

RELONZO PHILLIPS,

)

Plaintiff

Case No.:

21-CV-1415-3

)
)
)
)
)

vs.

DEKALB COUNTY SHERIFF,
Defendant.

ORDER DISMISSING WRIT OF HABEAS CORPUS
Defendant is in jail with a pending but unindicted robbery charge (Case number D0279704). He
filed this Habeas Petition alleging violations of his 4lh Amendment rights.
A writ of habeas corpus is not available to one who “is imprisoned under lawful process issued
from a court of competent jurisdiction unless his case is one in which bail is allowed and proper bail is
tendered....” OCGA § 9-14-16(1); Britt v. Conway, 281 Ga. 189(2006); See also Stevens v. Clayton
County Detention Center, 286 Ga. 158 (2009). When a petitioner seeks issuance of the writ on grounds
other than that he had tendered proper bail in connection with his then-pending prosecution on the
criminal charge, dismissal without a hearing is warranted. Britt at 190. Such is the case here, and the
Petition is DISMISSED.
The Court would note that the Defendant has an appointed attorney in the underlying criminal
case and that his bond has been set at ten thousand dollar bond as of May 22,2020.
SO ORDERED, this

day of

j 2021/

?

YCLANDAte. £AK laJWfrHTHTJudge
Stone Mountain Judicial Circuit
Cc:

Rupal Vaishnav, Assistant District Attorney;
Elizabeth Parks, Counsel for Defendant
Relonzo Phillips (X0151569)
4425 Memorial Dr.
Decatur, GA 30032

TD

